La
I

@QCKLE

E E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-222

GOLDMAN SACHS GROUP, INC., ET AL.,
Petitioners,
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
STATES NEW MEXICO, DELAWARE, HAWAI'I, ILLINOIS, MAINE, MICHIGAN,
MINNESOTA, NEBRASKA, NEW JERSEY, NORTH CAROLINA, OREGON,
PENNSYLVANIA, RHODE ISLAND, VERMONT, VIRGINIA, AND WASHINGTON
SUPPORTING RESPONDENTS in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 4705 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of March, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & Chk
i RENEE J. GOSS 9 A
My Comm. Exp. September 5, 2023 =

Notary Public Affiant 40763
